                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03620-102




    Combined Assessment Program 

            Review of the 

     Syracuse VA Medical Center 

         Syracuse, New York 





March 26, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CT             computed tomography
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Syracuse VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VASQIP         VA Surgical Quality Improvement Program
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                    CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Interim VISN Director Comments ......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              25

  F. Report Distribution .............................................................................................            26

  G. Endnotes ...........................................................................................................         27





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 27, 2014.

Review Results: The review covered seven activities.                              We    made     no
recommendations in the following three activities:

 Medication Management

 Coordination of Care

 Community Living Center Resident Independence and Dignity

The facility’s reported accomplishments were a revamped Systems Redesign program,
the Green Award, and the Computed Tomography Optimization Project.

Recommendations: We made recommendations in the following four activities:
Quality Management: Perform continuing stay reviews on at least 75 percent of patients
in acute beds. Ensure the Surgical Work Group meets monthly, includes the Chief of
Staff and VA Surgical Quality Improvement Program nurse as members, and
documents its review of National Surgical Office reports.

Environment of Care: Ensure all occasional locked mental health unit workers receive
training on proper use of the Mental Health Environment of Care Checklist and VA’s
National Center for Patient Safety study of suicide on psychiatric units.

Nurse Staffing: Ensure all members of the facility and unit-based expert panels receive
the required training prior to the next annual staffing plan reassessment.

Pressure Ulcer Prevention and Management: Perform and document patient skin
inspections and risk scale scores daily, upon transfer, and at discharge. Consistently
document pressure ulcer stages, and revise treatment plans if risk levels change.
Provide and document pressure ulcer education for patients at risk for and with
pressure ulcers and/or their caregivers.




VA OIG Office of Healthcare Inspections                                                            i
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Comments
The Interim Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–24, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                            JOHN D. DAIGH, JR., M.D. 

                                                           Assistant Inspector General for 

                                                              Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                            ii
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
January 24, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment

VA OIG Office of Healthcare Inspections                                                           1
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Program Review of the Syracuse VA Medical Center, Syracuse, New York, Report
No. 08-02564-163, July 13, 2009).

During this review, we presented crime awareness briefings for 74 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
126 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Systems Redesign
The facility rolled out InnoVAtion 2013 with the aim of re-branding and re-invigorating
the facility’s Systems Redesign program.           As part of InnoVAtion 2013, a
multidisciplinary team provided an infrastructure of support for improvement facility
wide. The team established initiatives to exceed veteran expectations, excel at process
improvement, and maximize outcomes. As a result, the facility now leads VISN 2 with
the highest patient satisfaction scores.

In order to further excel at process improvement, the program trained more than
200 front line staff members in Lean management and the skills necessary to facilitate
an improvement team. The result was an inaugural improvement forum at which
33 improvement project teams were on hand to present their projects to more than
400 employees and veterans.

Federal Green Challenge
The facility committed to meet a 5 percent reduction in energy and water consumption.
While facility size increased by 22 percent, energy and water reduction projects resulted
in a 12 percent decrease in electricity consumption and a 7 percent decrease in water
use. For its efforts, the facility received the 2013 Federal Green Challenge Award for
Environmental Protection Agency Region 2.

CT Optimization Project
The CT Optimization Committee, in conjunction with the CT Optimization Project,
reviewed all of the CT protocols to determine whether it was possible to decrease the
radiation exposure to veterans without degrading the diagnostic quality of their CT
scans. After a detailed review of the protocols, the committee was able to decrease
radiation exposure to veterans by 10 to 50 percent for many common CT scans
performed at the facility.

VA OIG Office of Healthcare Inspections                                                           2
                                              CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                    Areas Reviewed                                     Findings
      There was a senior-level committee/group
      responsible for QM/performance improvement
      that met regularly.
       There was evidence that outlier data was
         acted upon.
       There was evidence that QM, patient
         safety, and systems redesign were
         integrated.
      The protected peer review process met
      selected requirements:
       The PRC was chaired by the Chief of Staff
         and included membership by applicable
         service chiefs.
       Actions from individual peer reviews were
         completed and reported to the PRC.
       The PRC submitted quarterly summary
         reports to the MEC.
       Unusual findings or patterns were
         discussed at the MEC.
      Focused Professional Practice Evaluations for
      newly hired licensed independent practitioners
      were initiated and completed, and results
      were reported to the MEC.
NA    Specific telemedicine services met selected
      requirements:
       Services were properly approved.
       Services were provided and/or received by
         appropriately privileged staff.
       Professional practice evaluation information
         was available for review.




VA OIG Office of Healthcare Inspections                                                               3
                                                 CAP Review of the Syracuse VA Medical Center, Syracuse, NY


NM            Areas Reviewed (continued)                                    Findings
      Observation bed use met selected
      requirements:
       Local policy included necessary elements.
       Data regarding appropriateness of
         observation bed usage was gathered.
       If conversions to acute admissions were
         consistently 30 percent or more,
         observation criteria and utilization were
         reassessed timely.
 X    Staff performed continuing stay reviews on at      Twelve months of continuing stay data reviewed:
      least 75 percent of patients in acute beds.         For all 12 months, less than 75 percent of
                                                           acute inpatients were reviewed.
      The process to review resuscitation events
      met selected requirements:
       An interdisciplinary committee was
         responsible for reviewing episodes of care
         where resuscitation was attempted:
       Resuscitation event reviews included
         screening for clinical issues prior to events
         that may have contributed to the
         occurrence of the code.
       Data were collected that measured
         performance in responding to events.
 X    The surgical review process met selected            The Surgical Work Group met just 3 times
      requirements:                                        over the past 6 months.
       An interdisciplinary committee with
                                                         Three months of Surgical Work Group meeting
         appropriate leadership and clinical
                                                         minutes reviewed:
         membership met monthly to review surgical
                                                          The Chief of Staff was not a member.
         processes and outcomes.
                                                          The VASQIP nurse was not a member.
       All surgical deaths were reviewed.
                                                          There was no evidence the group reviewed
       Additional data elements were routinely
                                                           National Surgical Office reports.
         reviewed.
      Critical incidents reporting processes were
      appropriate.
      The process to review the quality of entries in
      the EHR met selected requirements:
       A committee was responsible to review
         EHR quality.
       Data were collected and analyzed at least
         quarterly.
       Reviews included data from most services
         and program areas.
      The policy for scanning non-VA care
      documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                    4
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY


NM             Areas Reviewed (continued)                                 Findings
      The process to review blood/transfusions
      usage met selected requirements:
       A committee with appropriate clinical
         membership met at least quarterly to review
         blood/transfusions usage.
       Additional data elements were routinely
         reviewed.
      Overall, if significant issues were identified,
      actions were taken and evaluated for
      effectiveness.
      Overall, senior managers were involved in
      performance improvement over the past
      12 months.
      Overall, the facility had a comprehensive,
      effective QM/performance improvement
      program over the past 12 months.
      The facility met any additional elements
      required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

2. We recommended that the Surgical Work Group meet monthly, include the Chief of Staff
and VASQIP nurse as members, and document its review of National Surgical Office reports.




VA OIG Office of Healthcare Inspections                                                                5
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected the medical/surgical intensive care, acute MH, spinal cord injury, and CLC units
and two medical surgical units. We also inspected the radiology and emergency departments
and the primary care clinic. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 30 employee training records (10 radiology
employees, 10 acute MH unit employees, 5 Multidisciplinary Safety Inspection Team members,
and 5 occasional acute MH unit employees). The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.
Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.




VA OIG Office of Healthcare Inspections                                                                6
                                                  CAP Review of the Syracuse VA Medical Center, Syracuse, NY


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 X     MH unit staff, Multidisciplinary Safety              Two of the occasional locked MH unit workers
       Inspection Team members, and occasional               had not completed training on proper use of
       unit workers received training on how to              the MH EOC Checklist and VA’s National
       identify and correct environmental hazards,           Center for Patient Safety study of suicide on
       content and proper use of the MH EOC                  psychiatric units.
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
       The locked MH unit was in compliance with
       MH EOC Checklist safety requirements or an
       abatement plan was in place.




VA OIG Office of Healthcare Inspections                                                                   7
                                            CAP Review of the Syracuse VA Medical Center, Syracuse, NY


NM      Areas Reviewed for Acute MH (continued)                         Findings
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

3. We recommended that processes be strengthened to ensure that all occasional locked MH
unit workers receive training on the proper use of the MH EOC Checklist and VA’s National
Center for Patient Safety study of suicide on psychiatric units and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                             8
                                                CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                  with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly            selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the       areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The       facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                      Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                                CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 31 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                10
                                                CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 24 training files, and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
area marked as NM did not meet applicable requirements and needed improvement. Any items
that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                      Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the         Three of the nine members of the unit-based
       required training.                                  expert panels had not completed the required
                                                           training.
                                                          Six of the 15 members of the facility expert
                                                           panel had not completed the required
                                                           training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                11
                                                   CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 25 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
5 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were                Four of the 16 applicable EHRs did not
       performed upon transfer, change in condition,         contain documentation that skin inspections
       and discharge.                                        and risk scales were performed upon
                                                             discharge.
                                                            Three of the eight applicable EHRs did not
                                                             contain documentation that skin inspections
                                                             and risk scales were performed upon transfer
                                                             to a new unit.
 X     Staff were generally consistent in                   In 4 of the 24 applicable EHRs, staff did not
       documenting location, stage, risk scale score,        consistently document pressure ulcer stages.
       and date acquired.
 X     Required activities were performed for               Eight of the 22 applicable EHRs did not
       patients determined to be at risk for pressure        contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.         performed daily skin inspections and daily
                                                             risk scales.
                                                            Two of the eight applicable EHRs did not
                                                             contain consistent documentation that staff
                                                             revised the prevention plan if the risk level
                                                             changed.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.




VA OIG Office of Healthcare Inspections                                                                      12
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY


NM              Areas Reviewed (continued)                                  Findings
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.
 X     The facility defined requirements for patient    Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and      education requirements reviewed:
       education on pressure ulcer prevention and        For 7 of the applicable 16 patients at risk for
       development was provided to those at risk for      and with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their              contain evidence that education was
       caregivers.                                        provided.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that processes be strengthened to ensure that acute care staff perform
and document patient skin inspections and risk scales daily, upon transfer, and at discharge and
that compliance be monitored.

6. We recommended that processes be strengthened to ensure that acute care staff
consistently document pressure ulcer stages and revise treatment plans when risk levels
change and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                     13
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 16 EHRs of residents (10 residents receiving restorative nursing services and
6 residents not receiving restorative nursing services but candidates for services). We also
observed two meal periods, reviewed two employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                     Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
 NA    If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                               14
                                            CAP Review of the Syracuse VA Medical Center, Syracuse, NY


          Areas Reviewed for Assistive Eating
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                            15
                                                CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                               Appendix A


             Facility Profile (Syracuse/528A7) FY 2014 through
                                February 2014a
Type of Organization                                                                      Tertiary
Complexity Level                                                                          1c-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $220.6
Number of:
    Unique Patients                                                                      37,731
    Outpatient Visits                                                                    184,573
    Unique Employeesb                                                                    1,445
Type and Number of Operating Beds (December 2013):
    Hospital                                                                             116
    CLC                                                                                  48
    MH                                                                                   16
Average Daily Census (January 2014):
    Hospital                                                                             86
    CLC                                                                                  43
    MH                                                                                   13
Number of Community Based Outpatient Clinics                                              7
Location(s)/Station Number(s)                                                             Auburn/528G5
                                                                                          Tompkins/528G9
                                                                                          Massena/528GL
                                                                                          Rome/528GM
                                                                                          Binghamton/528GN
                                                                                          Watertown/528GO
                                                                                          Oswego/528GP
VISN Number                                                                               2




a
    All data is for FY 2014 through February 2014 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    16
                                                                      CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                      17
                                                            CAP Review of the Syracuse VA Medical Center, Syracuse, NY



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                            18
                                                                                                            CAP Review of the Syracuse VA Medical Center, Syracuse, NY


                                                                         Metric Definitions
 Measure                       Definition                                                                              Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)       A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                 A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                              A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                    A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                             A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)          A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                           A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                       A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                  A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                    A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                          A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                    A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)       A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)                A higher value is better than a lower value
 PSI                           Patient safety indicator                                                                A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                        A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                          A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                 A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                    A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                   A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction               A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                  A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                 A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                     A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                          A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                              19
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                         Appendix C
                        Interim VISN Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:       March 10, 2014

          From:        Interim Director, VA Health Care Upstate New York (10N2)

       Subject:        CAP Review of the Syracuse VA Medical Center,
                       Syracuse, NY

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations of the Office of
          Inspector General Combined Assessment Review and have attached
          the facility action plan to resolve the identified recommendations.

       2. If you have any questions or need additional information, please feel
          free to contact Eric Yeager, Quality Manager at 315-425-4395.


               (original signed by:)
       Joanne M. Krumberger, FACHE




VA OIG Office of Healthcare Inspections                                                          20
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                         Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        March 1, 2014

          From:         Director, Syracuse VA Medical Center (528A7/00)

       Subject:         CAP Review of the Syracuse VA Medical Center,
                        Syracuse, NY

             To:        Interim Director, VA Health Care Upstate New York (10N2)

       1. I concur with the findings and recommendations of the office of
          Inspector General Combined Assessment Review and have attached
          the facility action plan to resolve the identified recommendations. We
          believe these changes will further enhance key systems and processes
          at our medical center.

       2. If you have any questions or need additional information, please feel
          free to contact Eric Yeager, Quality Manager at 315-425-4395.


          (original signed by:)
       James Cody, FACHE
       Medical Center Director




VA OIG Office of Healthcare Inspections                                                          21
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
continuing stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: May 1, 2014

Facility response: Processes will be strengthened to ensure continued stay reviews will
be performed on at least 75 percent of patients in acute beds.

Recommendation 2. We recommended that the Surgical Work Group meet monthly,
include the Chief of Staff and VASQIP nurse as members, and document its review of
National Surgical Office reports.

Concur

Target date for completion: February 1, 2014

Facility response: As of February 1, 2014, the Surgical Work Group is meeting monthly
with both the Chief of Staff and VASQIP Nurse as active participating members. The
National Surgical Office report reviews and discussion is now routinely documented in
the minutes.

Recommendation 3. We recommended that processes be strengthened to ensure that
all occasional locked MH unit workers receive training on the proper use of the MH EOC
Checklist and VA’s National Center for Patient Safety study of suicide on psychiatric
units and that compliance be monitored.

Concur

Target date for completion: January 28, 2014

Facility response: Annual mental health unit training on the mental health environment
of care checklist and patient safety study for the two occasional locked mental unit
workers was completed on January 28, 2014. Training compliance for all mental health
unit workers will be monitored through TMS annually to ensure compliance.




VA OIG Office of Healthcare Inspections                                                          22
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY


Recommendation 4. We recommended that all members of the facility and unit-based
expert panels receive the required training prior to the next annual staffing plan
reassessment.

Concur

Target date for completion: April 1, 2014

Facility response: All staff assigned to the unit-based and facility-based expert panel for
staffing methodology will complete required training per VHA Directive by April 1, 2014.
Completion of this training will be tracked and verified by the Nurse Executive prior to
the FY15 re-evaluation of staffing methodology.

Recommendation 5. We recommended that processes be strengthened to ensure that
acute care staff perform and document patient skin inspections and risk scales daily,
upon transfer, and at discharge and that compliance be monitored.

Concur

Target date for completion: May 1, 2014

Facility response: Processes have been strengthened to evaluate and ensure that acute
care staff appropriately document patient skin inspections and risk scales upon transfer
or discharge. Nursing staff educational programs have been revised to better equip
staff to understand the importance of consistently performing accurate skin inspections
and risk scale and documenting daily, upon transfer and at discharge. The unit nurse
managers will monitor the electronic health record (EHR) weekly to ensure compliance
and develop correction plans on the unit level. The Skin Care Wound Assessment
Team (SWAT) members will serve as unit resources towards this objective. Auditing
results will be reported to the Medical Staff Executive Committee quarterly.

Recommendation 6. We recommended that processes be strengthened to ensure that
acute care staff consistently document pressure ulcer stages and revise treatment plans
when risk levels change and that compliance be monitored.

Concur

Target date for completion: May 1, 2014

Facility response: Processes have been strengthened to ensure that acute care staff
accurately document pressure ulcers, including stage and location, and to revise
treatment plans when a patient risk level or change in condition occur. Nursing staff
educational programs have been revised to better equip staff to perform and document
accurate skin inspections, assignment of pressure ulcer stages, and to develop
appropriate treatment plans to individual patient needs or condition changes. The
individual unit nurse managers will monitor EHR weekly to ensure compliance and
develop correction plans on the unit level. The SWAT committee members will serve as



VA OIG Office of Healthcare Inspections                                                          23
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY


unit resources towards this objective. Auditing results will be reported to the Medical
Staff Executive Committee quarterly to ensure compliance is monitored.

Recommendation 7. We recommended that processes be strengthened to ensure that
acute care staff provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: May 1, 2014

Facility response: Informational campaigns have been developed to educate all staff of
the existing educational tools that address pressure ulcer prevention education for
patients and caregivers and the importance of documenting provision of this education
for patients at risk for and with existing pressure ulcers.          Compliance with
documentation of pressure ulcer education for patients with pressure ulcers and/or their
caregivers will be routinely monitored weekly by unit nurse managers. The SWAT
committee members will serve as unit resources towards this objective. Auditing results
will be reported to the Medical Staff Executive Committee quarterly to ensure
compliance is monitored.




VA OIG Office of Healthcare Inspections                                                          24
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                         Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Frank Keslof, EMT, MHA, Team Leader
Contributors            Annette Acosta, RN, MN
                        Jeanne Martin, PharmD
                        Jeff Stachowiak, Resident Agent in Charge, Office of
                           Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Elaine Kahigian, RN, JD
                        Clarissa Reynolds, CNHA, MBA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          25
                                          CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Interim Director, VA Health Care Upstate New York (10N2)
Director, Syracuse VA Medical Center (528A7/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Daniel Maffei


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                          26
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             27
                                               CAP Review of the Syracuse VA Medical Center, Syracuse, NY



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    28
